    Office of Inspector General
Federal Communications Commission

        Semiannual Report to Congress
    October 1, 2010 through March 31, 2011
                   The Federal Communications Commission




                                        (left to right)

                 Commissioner Clyburn, Commissioner Copps,

             Chairman Genachowski, Commissioner McDowell,

                                    Commissioner Baker




FCC OIG—Semiannual Report to Congress                     October 1, 2010—March 31 2011
                                                                            Cover Letter
        Date:                March 31, 2011

        To:                  Chairman, Federal Communications Commission

        Reply to
        the attention of :   Inspector General

        SUBJECT:             Semiannual Report to Congress

        In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3
        § 5, I have attached my report summarizing the activities and accomplishments of the
        Office of the Inspector General ("OIG") during the six-month period ending March 31,
        2011. In accordance with Section 5(b) of that Act, it would be appreciated if this report,
        along with any associated report that you prepare as Chairman of the Federal Commu-
        nications Commission ("FCC"), were forwarded to the appropriate Congressional over-
        sight committees within 30 days of your receipt of this report.

        This report describes audits that are in process, as well as those that have been com-
        pleted during the preceding six months. OIG investigative personnel continued to ad-
        dress issues referred to, or initiated by, this office. Where appropriate, investigative
        and audit reports have been forwarded to the Commission's management for action.

        This office remains committed to maintaining the highest possible standards of profes-
        sionalism and quality in its audits, investigations, inspections and consultations and
        we welcome any comments or suggestions that you might have. Please let me know if
        you have any questions or comments.




                                                                  David L. Hunt
                                                                  Inspector General
Enclosure
      cc FCC Chief of Staff
      FCC Managing Director




  FCC OIG—Semiannual Report to Congress                              October 1, 2010—March 31, 2011
       TABLE OF CONTENTS

        Introduction                                                         1

        OIG Management Activities                                            2

        Office Staffing                                                      3

        Internship Program                                                   3

        Legislative and Policy Matters                                       4

        Audit Activities                                                     6

        Financial Audits                                                     7

        Performance Audits                                                   9

        Universal Service Fund Oversight                                     12

        Investigations                                                       18

        Activity During this Period                                          21

        Modernizing FCC OIG Investigations                                   21

        Significant Investigative Case Summaries                             21

        OIG Hotline                                                          31

        Reporting Requirements of the Inspector General Act                  32

        APPENDIX– Results of Peer Reviews                                    35




FCC OIG—Semiannual Report to Congress                         October 1, 2010—March 31 2011
      INTRODUCTION

      The Federal Communications Commission ("FCC" or ‚the Commission‛) is an inde-
      pendent regulatory agency, established by Congress to regulate interstate and foreign
      communications by radio, television, wire, satellite and cable. The FCC’s jurisdiction
      covers the fifty states, the District of Columbia, the Commonwealth of Puerto Rico and
      all U.S. territories.

      The FCC consists of a Chairman and four Commissioners, who are appointed by the
      President and confirmed by the United States Senate. Julius Genachowski serves as
      Chairman. Michel J. Copps, Robert M. McDowell, Mignon Clyburn, Meredith Atwell
      Baker serve as Commissioners. Most of the FCC's employees are located in Washing-
      ton, D.C. at the Portals II building, which is located at 445 12th St., S.W., Washington,
      D.C. Field offices and resident agents are located throughout the United States.

      The Office of Inspector General ("OIG" or ‚Office‛) is dedicated to ensuring compli-
      ance with the requirements of the Inspectors' General Act and assisting the Chairman
      in his continuing efforts to improve the effectiveness and efficiency of the Federal
      Communications Commission. The Inspector General (‚IG‛), David L. Hunt reports
      directly to the Chairman. The IG's staff consists of attorneys, auditors, economists, in-
      vestigators, management specialists and support personnel. Principal assistants to the
      IG are: William K. Garay, Assistant Inspector General ("AIG") for Audits; Gerald T.
      Grahe, AIG for Universal Service Fund Oversight; Thomas C. Cline, AIG for Policy
      and Planning; Harold Shrewsberry, AIG for Management, Carla Conover, AIG for In-
      vestigations and Counsel to the IG, Kathleen O’Reilly, Special Counsel on the Univer-
      sal Service Fund and Jon R. Stover, Senior Legal Advisor.

      This semiannual report includes the major accomplishments and activities of the OIG
      from October 1, 2010 through March 31, 2011, as well as information on the IG’s goals
      and future plans.




FCC OIG—Semiannual Report to Congress          1                    October 1, 2010—March 31, 2011
                    OIG MANAGEMENT ACTIVITIES

                                        OFFICE STAFFING


                                INTERNSHIP PROGRAM


                     LEGISLATIVE AND POLICY MATTERS




FCC OIG—Semiannual Report to Congress        2            October 1, 2010—March 31 2011
                         OIG MANAGEMENT ACTIVITES

      OFFICE STAFFING


      OIG is comprised of 23 Full Time Equivalent (‚FTE‛) and 12 Not To Exceed (‚NTE‛)
      four year term appointed professionals, and three FTE, two NTE support personnel
      and one intern. The staffing needs of this office have been described in the last several
      Semiannual Reports. At one point this Office had 21 NTE employees. These positions
      are funded through monies transferred from USAC pursuant to the Consolidated Ap-
      propriations Act, 2008 (P.L. 110-161) that specifies that ‚…$21,480,000 may be trans-
      ferred from the Universal Service Fund in fiscal year 2008 to remain available until ex-
      pended, to monitor the Universal Service Fund program to prevent and remedy waste,
      fraud and abuse, and to conduct audits and investigations by the Office of Inspector
      General…‛ These employees allow this Office to more aggressively pursue fraud and
      waste in the USF program. All monies transferred via the above-mentioned appropri-
      ations act not being used to pay NTE employee salaries and benefits are used to fur-
      ther support USF oversight.

      Currently, only a dozen of the original NTEs remain in OIG. The remainder have all
      accepted permanent positions elsewhere in the Federal Government. This personnel
      loss has reduced our capacity to audit and investigate the USF program. Because of
      this OIG’s 2012 budget request includes 19 FTE positions. These FTE positions will
      greatly enhance our audit and investigatory capabilities.

      Our professional staff consists of well-trained, experienced professionals, most of
      whom have one or more professional certifications. In our continuing efforts to in-
      crease the expertise of our auditors, attorneys and investigators, members of this office
      have attended classes at the Federal Law Enforcement Training Center (also known as
      ‚FLETC‛), the Inspector General Criminal Investigative Academy, other Inspectors
      General training programs and other relevant venues.

      INTERNSHIP PROGRAM

      OIG welcomes college interns during the fall, spring and summer semesters. Most of
      these students take their internships for credit. Our interns have come from schools




FCC OIG—Semiannual Report to Congress         3                    October 1, 2010—March 31, 2011
                          OIG MANAGEMENT ACTIVITIES

       across the country including American University, Arizona State University, DePauw
       University, Georgetown University, Hamilton College, James Madison University,
       Marymount College, Long Island University, North Carolina State University, Purdue
       University, the University of California at Berkeley, the University of California at Da-
       vis, the University of Maryland Law School, the University of North Carolina, Xavier
       University, Liberty College, George Mason, George Washington, and Northern Virgin-
       ia Community College.

       These internships have proven to be rewarding experiences for all participants. Stu-
       dents leave with a good understanding of how a government agency operates, and
       they have the opportunity to encounter challenges while enjoying the rewards that can
       come from public service. In turn, the Office has benefited from the students’ excellent
       work performance.

       LEGISLATIVE AND POLICY MATTERS

       Pursuant to section 4(a)(2) of the Inspector General Act of 1978, 5 U.S.C.A. App. as
       amended, our Office monitors and reviews existing and proposed legislation and regu-
       latory proposals for their potential impact on the OIG and the FCC’s programs and op-
       erations. Specifically, we perform this activity to evaluate legislative potential for en-
       couraging economy and efficiency while helping to reduce fraud, waste, abuse, and
       mismanagement.

       Throughout the reporting period, we have reviewed various proposals for legislation
       affecting Inspector General responsibilities, such as proposals for testimonial subpoena
       authority and proposed waivers on the restrictions on government employees serving
       in an official capacity for non-profit organizations in 18 USC 208.

       We have reviewed final draft guidance from the Office of Management and Budget for
       the implementation of Public Law 111-204, the Improper Payments Elimination Im-
       provement Act, to ensure our compliance with the requirements therein and related
       Executive Orders.




FCC OIG—Semiannual Report to Congress          4                          October 1, 2010—March 31 2011
                         OIG MANAGEMENT ACTIVITES

      In addition to legislative developments, OIG continuously monitors FCC policy devel-
      opment and provides input as appropriate. We have also participated in many sur-
      veys and data calls sponsored by the Council of Inspectors General for Integrity and
      Efficiency and the Recovery Accountability and Transparency Board.

      Please see the Appendix to this report for information regarding peer reviews as re-
      quired by Public Law 111-203.




FCC OIG—Semiannual Report to Congress         5                  October 1, 2010—March 31, 2011
                                 AUDIT ACTIVITIES

                                   FINANCIAL AUDITS


                               PERFORMANCE AUDITS


                 UNIVERSAL SERVICE FUND OVERSIGHT




FCC OIG—Semiannual Report to Congress    6            October 1, 2010—March 31 2011
                                   AUDIT ACTIVITIES

      Under the authority of the Inspector General Act of 1978, as amended, the OIG con-
      ducts independent and objective audits and inspections designed to prevent and detect
      waste, fraud and abuse and to promote economy, effectiveness and efficiency in FCC
      programs and operations. These audits and inspections are conducted in accordance
      with professional standards. The following sections are highlights of the work con-
      ducted by the audit teams during the current fiscal period.

      FINANCIAL AUDITS

      Financial statement audits are mandatory and provide reasonable assurance as to
      whether the agency’s financial statements are presented fairly in all material respects.
      Other objectives of financial statement audits are to provide an assessment of the inter-
      nal controls over transaction processing for accurate financial reporting and an assess-
      ment of compliance with applicable laws and regulations.

              Audit of the FCC’s Fiscal Year 2010 Consolidated Financial Statements

      In accordance with the Accountability of Tax Dollars Act of 2002, the FCC prepared
      consolidated financial statements for the 2009 fiscal year in accordance with Office of
      Management and Budget (‚OMB‛) Circular A-136, Financial Reporting Requirements,
      and subjected them to audit. The Chief Financial Officers Act of 1990 (‚CFO Act‛), as
      amended, requires the FCC IG, or an independent external auditor selected by the In-
      spector General, to audit the FCC financial statements in accordance with government
      auditing standards issued by the Comptroller General of the United States
      (‚GAGAS‛). Under the direction of the Office, KPMG LLP (‚KPMG‛), an independent
      certified public accounting firm, performed the audit of FCC’s FY 2010 consolidated
      financial statements. The audit was conducted in accordance with GAGAS, OMB Bul-
      letin 07-04, as amended, and applicable sections of the U.S. Government Accountabil-
      ity Office ("GAO")/President’s Council on Integrity & Efficiency (‚PCIE‛) Financial
      Audit Manual.

      As a result of the 2010 financial statement audit, KPMG issued an independent




FCC OIG—Semiannual Report to Congress        7                     October 1, 2010—March 31, 2011
                                               AUDIT ACTIVITIES

       Auditors’ report with an unqualified opinion on FCC’s financial statements, a report
       on internal controls over financial reporting, and a report on compliance and other
       matters dated November 12th 2010. KPMG reported that FCC’s financial statements
       were fairly presented in all material respects in conformity with U.S. generally accept-
       ed accounting principles.

        The report on internal controls over financial reporting identified two control weak-
       nesses that were considered significant deficiencies1. The first significant deficiency
       was over FCC’s financial reporting process as a result of inadequate financial system
       integration and manual reporting processes. The second significant deficiency was
       over the FCC information technology controls. The auditors identified deficiencies in
       the FCC’s control environment, control activities, risk assessment process, and moni-
       toring activities as it relates to securing FCC ‘s information technology infrastructure.
       They also noted that the information technology weaknesses may impact the FCC’s
       ability to comply with OMB’s internal control objectives for financial reporting.
       KPMG did not consider any of the deficiencies identified during the audit to be materi-
       al weaknesses2.

       The Commission is responsible for complying with laws, regulations, and provisions
       of contracts applicable to the FCC. To obtain reasonable assurance as to whether the
       Commission’s financial statements are free of material misstatement, KPMG per-
       formed tests of the Commission’s compliance with provisions of laws, regulations, and
       contracts that could have a direct and material effect on the determination of financial
       statement amounts. The results of this testing identified that FCC was not in compli-
       ance with the Federal Managers Financial Integrity Act because the current financial
       systems and processes do not achieve the financial system integration standards set
       within GAO Standards for Internal Control in the Federal Government.

       1.   Significant deficiency is defined as a deficiency or combination of deficiencies in internal control that is less
            severe than a material weakness, yet important enough to merit attention by those charged with governance.
            A material weakness is defined as a significant deficiency or combination of deficiencies in internal control
            such that there is a reasonable possibility that a material misstatement of the entity’s financial statements will
            not be prevented, or detected and corrected on a timely basis.




                                                                8
FCC OIG—Semiannual Report to Congress                                                            October 1, 2010—March 31 2011
                                  AUDIT ACTIVITIES

      As required by Chapter 4700 of the U.S. Department of the Treasury’s Treasury Fi-
      nancial Manual (TFM), the FCC prepared special-purpose financial statements for
      the purpose of providing financial information to the U.S. Department of the Treas-
      ury and the U.S. Government Accountability Office (GAO) to use in preparing and
      auditing the Financial Report of the U.S. Government. Under the oversight of the
      OIG, KPMG performed an audit of the special purpose financial statements in ac-
      cordance with GAGAS and OMB Bulletin 07-04 as amended. KPMG issued an un-
      qualified opinion on Commissions Special Purpose Financial Statements. The audi-
      tor’s report disclosed no significant deficiencies in the internal controls over the fi-
      nancial reporting process for the special purpose statements and no instances of non-
      compliance.

      PERFORMANCE AUDITS

      Performance audits are systematic examinations that are conducted to assess the per-
      formance of a government program, activity, or function so that corrective action can
      be taken, if appropriate. Performance audits include audits of government contracts
      and grants with private sector organizations, as well as government and non-profit
      organizations that determine compliance with contractual terms, Federal Acquisition
      Regulations ("FAR"), and internal contractual administration.

                    Oversight of USAC’s 2010 Financial Statement Audit and
                            Agreed-Upon Procedures Examination

      The OIG is performing oversight of the Universal Service Administration Company’s
      (USAC) 2010 financial statement and agreed-upon procedures audits related USAC
      operations. This oversight is required by Section 54.717 of the Commission’s rules
      (47 CFR 54.717).

      Section 54.717 requires USAC to obtain an annual audit that examines its operations
      and books of account to determine whether USAC is properly administering the uni-
      versal service support mechanisms to prevent fraud, waste and abuse. To fulfill this




FCC OIG—Semiannual Report to Congress       9                      October 1, 2010—March 31, 2011
                                        AUDIT ACTIVITIES

       requirement, USAC contracted with PriceWaterhouseCoopers LLC (PWC) to perform
       an audit of its 2010 financial statements and to perform agreed-upon procedures estab-
       lished by USAC and FCC.

        Section 54.717 also requires that the Inspector General approve the audit requirements
       and scope of the engagement. The OIG will continue to monitor the engagement, as
       required by Section 54.717, until its completion. PWC is expected to report the results
       of their audit in June 2011.

                    Fiscal Year 2010 Federal Information Security Management Act

       The Federal Information Security Management Act (‚FISMA‛) requires federal agen-
       cies to develop, document, and implement an agency-wide program to provide infor-
       mation security for the information and information systems that support the opera-
       tions and assets of the agency, including those provided or managed by another agen-
       cy, contractor, or other source. According to FISMA, ‚information security‛ means
       protecting information and information systems from unauthorized access, use, disclo-
       sure, disruption, modification, or destruction in order to provide integrity, confidenti-
       ality and availability.

       A key FISMA provision requires that each IG annually evaluate his or her agency’s in-
       formation security programs and practices. These evaluations must include testing of
       a representative subset of systems and an assessment based on that testing of the agen-
       cy’s compliance with FISMA and applicable requirements. To address this require-
       ment, we contracted with KPMG to perform the 2010 FISMA evaluation.

       During this semiannual period, KPMG completed its evaluation and identified several
       new findings. Each finding comprised multiple issues. FCC management was provid-
       ed with these findings and the related recommendations. Management provided their
       comments and stated that they generally concurred with the recommendations. Our
       report on the FY 2010 evaluation was issued on March 29, 2011.




FCC OIG—Semiannual Report to Congress            10                      October 1, 2010—March 31 2011
                                    AUDIT ACTIVITES

                Compliance Audit of Telecommunications Relay Service Providers

      The Telecommunications Relay Service (TRS) Fund compensates communications ser-
      vice providers for the costs of providing interstate telecommunications services that
      enable a person with hearing or speech disabilities to communicate with a person
      without hearing or speech disabilities.

      The TRS Fund has grown substantially since its inception due to the increase in distri-
      butions. The increased distributions resulted in a higher risk for fraud, waste, and
      abuse. The fund’s initial allotment in 1993 for distributions was $31 million and in-
      creased over the next six years to $38 million in 1999. The TRS fund has increased ap-
      proximately 50-80 percent each year since then, and reached $891 million in the fund’s
      fiscal year July 2009 through June 2010. The Federal Communications Commission ap-
      proved a fund size of $434 million for the current fiscal year July, 2010 through June
      2011.

      The purpose of the audit is to determine whether funds that the providers received
      from the TRS Fund administered by the National Exchange Carriers Association
      (NECA) were expended in accordance with applicable laws and regulations, and sup-
      ported by sufficient documentation. The scope of the audit includes all disbursements
      and related information for all funds received from the TRS fund during calendar
      years 2008 and 2009 for providing Video Relay Services (VRS). The audit is in progress
      and is expected to be completed in 2011.

                               Digital Copier and Scanner Inspection

      The purpose of our inspection was to determine whether the Commission had estab-
      lished policies and procedures to ensure that digital copiers or scanners, when going
      off lease or being de-accessioned, contained no sensitive, confidential, or personal data.
      This inspection was conducted based on discussions with Commission staff and man-
      agement. We also reviewed relevant Commission policies and procedures. This in-




FCC OIG—Semiannual Report to Congress          11                  October 1, 2010—March 31, 2011
                                        AUDIT ACTIVITES

       spection will be completed by the end of the next reporting period.

                                        Guam Realignment Project

       The IG is a member of the Interagency Coordination Group (‚ICG‛) of Inspectors Gen-
       eral for Guam Realignment. The ICG was established by Section 2835 of the National
       Defense Authorization Act for FY 20I0, 111 Public Law 84, to oversee the U.S. Marine
       Corps realignment to the island of Guam. During the reporting period, we provided
       input for the draft ICG report to Congress on funds spent for the military realignment
       on Guam.. We await further requests for technical and/or audit assistance from DoD.

       UNIVERSAL SERVICE FUND OVERSIGHT

       FCC rules require telecommunications providers of international and interstate tele-
       communications services to contribute to the Universal Service Fund (‚USF‛). This
       includes providers that offer interstate telecommunications for a fee on a non-common
       carrier basis, interconnected Voice Over Internet Protocol providers and payphone
       providers that are aggregators.

       The USF Audit Team currently consists of an Assistant Inspector General, three Direc-
       tors, and four staff auditors. There is also a Special Counsel for USF who reports di-
       rectly to the IG.

       The FCC’s USF has four support mechanisms:

           High Cost support ensures that consumers in all regions of the nation have access
           to and pay rates for telecommunications services that are reasonably comparable to
           those services provide and rates paid in urban areas.

           Schools and Libraries support, commonly known as ‚E-Rate,‛ provides discounts
           to assist schools and libraries in the United Sates to obtain affordable telecommuni-
           cations and Internet access.




FCC OIG—Semiannual Report to Congress            12                       October 1, 2010—March 31 2011
                                    AUDIT ACTIVITES

         Low Income support is designed to ensure that telecommunications services are
         available to low-income customers at just, reasonable, and affordable rates. Simi-
         lar programs have existed since at least 1985. The Telecommunications Act of 1996
         reiterated their importance by including the principle that ‚consumers in all re-
         gions of the nation, including low income customers…should have access to tele-
         communications and information services…‛

         Rural Health Care support provides reduced rates to rural health care providers for
         telecommunications services and Internet access charges related to the use of tele-
         medicine and telehealth. The Rural Health Care pilot Program is a pilot funding
         program designed to facilitate the creation of a nationwide broadband network
         dedicated to health care, connecting public and private non-profit health care pro-
         viders in rural and urban locations.

                                        High Cost Program

      During this reporting period, eight final audit reports were issued for our audits of the
      Sprint-Nextel entities listed below for USF disbursements received for the period from
      7/1/07 to 6/30/08.


                                   Entity               12 Months USF
                                                           High Cost
                                                        Disbursements
                        NPCR – Georgia                 $ 1,606,306
                        NPCR – Hawaii                  $ 17,329,581
                        NPCR – Pennsylvania            $ 1,439,015
                        Sprint Nextel – Arizona        $ 2,513,664
                        Sprint Nextel - Georgia        $ 2,145,948
                        Sprint Nextel - Indiana        $ 2,479,196
                        Sprint Nextel – Puerto Rico    $ 13,060,056
                        Sprint Nextel - Texas          $ 5,689,542
                        Total                          $ 46,263,308




FCC OIG—Semiannual Report to Congress           13                 October 1, 2010—March 31, 2011
                                        AUDIT ACTIVITES

       In general, as a Competitive Eligible Telecommunications Carrier (‚CETC‛), each of
       these entities is entitled to receive USF based on the number of eligible lines it serves in
       a particular service area based on the support the Incumbent Local Exchange Carrier
       (‚ILEC‛) would receive for each such line. Therefore the audit centered on how the
       eligible lines served by Sprint-Nextel were counted and reported in each ILEC service
       area served.

       Audit findings included duplicate and non-eligible lines included in USF claims.
       Sprint Nextel has indicated that new procedures have been implemented to address
       these findings.

       The High Cost team has been developing statistically based analysis tools to review
       data submissions by cost companies for High Cost Loop and Local Switching Support.
       The model is designed to measure the contribution of specific accounts to high cost
       payments. The model was used in conjunction with a recent field visit to an ILEC
       identified as a one of the Top 10 receivers of USF disbursements on a per line basis.
       The results of this field visit will be available for the next reporting period.

                                    Schools and Libraries Program

       On January 24, 2011, OIG announced a performance audit of a public charter school in
       the State of Maryland, Hampstead Hill Elementary School. The objective of the audit
       is to determine the School’s compliance with the Federal Communication Commis-
       sion’s rules and orders governing the Universal Service Fund Schools and Libraries
       Support Mechanism. This audit was selected from a statistical sample of Schools and
       Libraries Program beneficiaries based on program risk factors. On-site fieldwork is
       complete and a draft report is expected to be issued in the next reporting period.

                                         Low Income Program

       During the period, the OIG continued work on a performance audit of USAC’s admin-
       istration of the USF Low Income (LI) program disbursement system. The purpose




                                                   14
FCC OIG—Semiannual Report to Congress                                      October 1, 2010—March 31 2011
                                    AUDIT ACTIVITES

      of the audit is to determine whether the disbursement system is in accordance with ap-
      plicable law, and meets the goals of eliminating fraud, waste, and abuse in the federal
      universal service program. Review of the draft audit report is in progress and we ex-
      pect to issue the draft version of the audit report during the next semi-annual period.

      The OIG monitored a situation in which USAC made an error in its November 2010
      monthly disbursement of LI program funds in which the incorrect disbursement
      amount was paid for every one of the 1,521 companies eligible to receive LI funds
      (ETCs). As a result, USAC was required to collect overpayments from 178 ETCs a total
      of almost $37 million. The purpose of our monitoring efforts was to identify how the
      error happened and whether actions taken by USAC were sufficient to correct it and
      ensure that it doesn’t reoccur.

                                            Contributors

      On November 9, 2010, a final audit report was issued for our audit of Mix Networks,
      Inc. The major finding was that the Company reported revenues from customers that
      did not contribute to the USF as reseller revenues (‚exempt revenues‛) in block 3, as
      opposed to end-user revenues in block 4, without demonstrating that it had a reasona-
      ble expectation that those were reseller revenues exempt from USF contributions. The
      net effect of the finding was that the Company overstated exempt reseller revenues in
      block 3 on the FCC Forms 499-A by $1,114,876 for 2007 and $201,602 and understated
      USF-related interstate and international end-user revenues in block 4 by the same
      amount. We also found that the Company (1) incorrectly reported USF recovery pay-
      ments, and (2) overcharged USF recovery on customers’ bills.

      On March 22, 2011, a final audit report was issued for our audit of dPi Teleconnect,
      LLC. Our audit identified five findings in which the Company did not comply with
      FCC rules regarding its 2007, 2008, and 2009 FCC Forms 499-A. The Company (1)
      failed to report subscriber line charges of which $5.7 million is subject to USF contribu-
      tions; (2) failed to report mobile service revenues which are subject to USF contribu-
      tions; (3) failed to report long distance toll revenues as interstate and international




FCC OIG—Semiannual Report to Congress           15                  October 1, 2010—March 31, 2011
                                        AUDIT ACTIVITES

       (4) failed to report USF recovery revenues of more than $100,000, which is subject to
       USF contributions; and, (5) failed to use an officer to certify the 2008 and 2009 FCC
       forms 499-A.

       On March 22, 2011, a final audit report was issued on our audit of Associated Network
       Partners, Inc. Our audit identified two findings in which the Company did not comply
       with the FCC rules or instructions regarding its 2006, 2007 and 2008 FCC Forms 499-A.
       The major finding was that the Company reported revenues from customers that did
       not contribute to the USF as reseller revenues (exempt revenues) in block 3, as opposed
       to end-user revenues in block 4, without demonstrating that it had a reasonable expec-
       tation that those were reseller revenues exempt from USF contributions. The net effect
       of the finding was that the Company overstated exempt reseller revenues in block 3 on
       the FCC Form 499-A by $2,067,545 and understated USF-related interstate and interna-
       tional end-user revenues in block 4 by the same amount. We also identified a finding
       in which the Company reported pre-paid calling card revenue on the wrong line of the
       2008 FCC Form 499-A.

       On March 24, 2011, a final audit report was issued on our audit of Affinity Network,
       Inc. Our audit identified three findings in which the Company did not comply with
       the FCC rules and Regulations and with the Telecommunications Reporting Work-
       sheet Instructions regarding its 2008 FCC Form 499-A. The Company (1) overcharged
       USF recovery on customers bills; (2) did not match the international traffic report to
       the FCC Form 499-A; and (3) underestimated contribution base revenue projections on
       FCC Form 499-Q.

                          National Exchange Carrier Association, Inc. Review

       During this reporting period, OIG provided a report in response to a Congressional
       mandate directing the OIG to report whether, and to what extent, the National Ex-
       change Carrier Association, Inc, (‚NECA‛) is acting in compliance with the Communi-
       cations Act of 1934, as amended (the ‚Act‛), and associated regulations, and whether,
       and to what extent the FCC has delegated authority to NECA consistent with the Act.




FCC OIG—Semiannual Report to Congress            16                      October 1, 2010—March 31 2011
                                       AUDIT ACTIVITES

      The report provided a history, membership information, and information on the vari-
      ous NECA activities.

      OIG found no mention of NECA in the Act or in any amendment subsequent to NE-
      CA’s establishment pursuant to the Commission order adopted in 1983. Also, that the
      Commission has not delegated final decision-making authority to NECA. There is no
      express Congressional intent that the FCC delegate decision-making authority to NE-
      CA, an outside entity, nor did the OIG find any evidence that the FCC has attempted
      to do so. The Commission has also clearly and consistently stated that it retained ulti-
      mate decision-making authority when it has assigned functions to NECA.

      Several issues identified in the process of preparing this report will be the subject of a supple-
      mental report.




FCC OIG—Semiannual Report to Congress                17                    October 1, 2010—March 31, 2011
                                 INVESTIGATIONS

              ACTIVITY DURING THIS REPORTING PERIOD


                MODERNIZING FCC OIG INVESTIGATIONS


          SIGNIFICANT INVESTIGATIVE CASE SUMMARIES


                                        OIG HOTLINE




FCC OIG—Semiannual Report to Congress       18        October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      FCC OIG investigations are initiated for numerous reasons. Our investigations often
      address allegations of fraud in FCC programs, such as the federal Universal Service
      and Telecommunications Relay Services Fund programs, or other criminal activity or
      misconduct within the FCC or its programs. Many investigations are based on allega-
      tions of employee misconduct, violations of federal law or FCC regulations or other
      forms of fraud, waste, abuse or criminal activity. We also receive and investigate com-
      plaints regarding the manner in which the FCC executes its programs, how the FCC
      handles its operations administratively, and how the FCC conducts its oversight re-
      sponsibilities.

      Allegations come from all sources. FCC managers, employees, contractors, and other
      stakeholders often contact the OIG directly with concerns about fraud, waste, abuse, or
      other inappropriate activities. Individuals call or e-mail the OIG Hotline, or send com-
      plaints through the United States Postal Service. The OIG’s Hotline is continuously
      monitored, and any urgent matter is forwarded to the appropriate OIG staff member
      soon after it is received. The reply times for allegations that require a response is con-
      stantly evaluated. The OIG has made Hotline processing a special priority, and will
      continue to do so.

      Allegations can be, and frequently are, made anonymously and can require substan-
      tive outreach to ensure the potential source is comfortable with the processing of
      providing information to the OIG. Our Office to date has agreed to every accommoda-
      tion possible as we recognize what a critical source of information this provides to eve-
      ry OIG. We also receive valuable referrals from other government agencies, federal,
      state and local, including the Government Accountability Office, the Office of Special
      Counsel, and congressional and senatorial offices. In addition, investigations may de-
      velop from OIG audits or inspections that discover evidence or indications of fraud,
      waste, abuse, misconduct, corruption, or mismanagement of FCC programs or opera-
      tional segments.

      After receiving an allegation of fraud, waste or abuse, we conduct a preliminary re-
      view of the matter to determine if further investigation or referral to another office or




FCC OIG—Semiannual Report to Congress          19                   October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       agency is warranted. Sometimes serious allegations may merit attention, but be out-
       side the jurisdiction of the OIG. These allegations would be referred to the appropriate
       entity, usually another office or bureau in the FCC or another federal or law enforce-
       ment agency, for review and action as necessary or appropriate. As much as possible,
       the OIG continues to be involved and serve as a facilitator for matters that are outside
       the jurisdiction of this Office. The FCC OIG, like most government offices, has an ever-
       increasing volume of work and dedicated but limited resources. Therefore, allegations
       of matters within the jurisdiction of the OIG are reviewed for assignment and priority
       in a ‚triage‛ method. Matters that have the potential to significantly impact federal
       funds, important FCC missions or programs, or the basic integrity and working of the
       agency receive the highest priority for investigation and assignment of resources.

       The OIG works not only on a large number of investigations, but a large variety of in-
       vestigations. Among other matters, we deal with complex cyber crime investigations,
       large criminal conspiracies, and cases through the United States and its territories.
       These complex and wide-ranging cases often require substantial investigative expertise
       and resources that the OIG itself does not have, which include personnel on the
       ground across several states or high-grade forensic tools and the expertise to use them.
       In these cases, we have always received, and are grateful for, the assistance of other
       agencies, especially including OIG of other federal agencies. This cooperation within
       the law enforcement community has saved this office valuable time and expense on
       many occasions.

       The AIGI and our investigators also work with other agencies, including the U.S. De-
       partment of Justice (‚DOJ‛), to support their criminal and civil investigations and
       prosecutions relating to the FCC missions and programs. Many of these investigations
       and prosecutions involve fraud pertaining to the federal universal service program,
       sometimes referred to as the Universal Service Fund or USF. One of the USF programs
       that benefits schools and libraries across the nation, often known as the E-Rate Pro-
       gram, has been a prime target for fraud but has also been the focus of joint and coordi-
       nated investigation and prosecution efforts by the DOJ and the FCC and OIG. Those
       efforts have now resulted in a history of successful prosecutions and indictments, and




FCC OIG—Semiannual Report to Congress           20                       October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      of restitution for such fraud to the USF.

      ACTIVITY DURING THIS PERIOD

      At the outset of this reporting period, 97 cases were pending. Over the last six months,
      21 cases have been closed and 22 opened. As a consequence, a total of 98 cases are
      pending. These numbers do not include preliminary reviews of allegations, from the
      Hotline or other sources, or related minor evidence analysis.

      Statistics
      Cases pending as of September 30, 2010      97
      New Cases                                   22
      Cases Closed                                21
      Cases pending as of April 1, 2011           98

      MODERNIZING THE FCC OIG OFFICE OF INVESTIGATIONS

      As with the FCC as a whole, improving the efficient use of scarce resources by mod-
      ernizing computer-aided forensics and other technical assets in our work is an on-
      going effort for OIG Investigations. During the reporting period, our first electronic
      case management system went on-line. We continue to work on efforts to find and uti-
      lize modern technology in ways that will leverage our resources for the most efficient
      and effective investigation and prosecution of fraud, waste and abuse in FCC missions
      and programs.

      SIGNIGICANT CASE SUMMARIES

      Several of the most recent efforts of this Office are described below. There are, howev-
      er, many other matters that, due to their sensitive nature or related investigations, can-
      not be included. We discuss significant investigations when and if information be-
      comes or can be made public without negative impact on law enforcement activities or
      prosecution.




FCC OIG—Semiannual Report to Congress              21               October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

                             Qui Tam Law Suits Involving FCC Programs

       Many of the FCC OIG investigations arise pursuant to the False Claims Act (‚FCA‛),
       31 U.S.C. § 3729 et seq, as ‚qui tam‛ lawsuits. The FCA provides for liability for any-
       one who knowingly submits or causes the submission of a false or fraudulent claim to
       the United States. Pursuant to the qui tam provision of the FCA, a private party with
       evidence of fraud (known as the relator) is able to sue the person(s) engaged in the
       fraud, on behalf of the government. The FCA provides that the relator’s suit will re-
       main ‚sealed‛ and not in the public record for a period of time in which the govern-
       ment can investigate the allegations and decide if DOJ should intervene and prosecute
       the case for the United States. The FCC OIG assists the DOJ in investigating such qui
       tam allegations that relate to FCC programs or operations. The FCC OIG investigated
       matters in three qui tam law suits that were unsealed during the reporting period and
       that are detailed below.

       Stephen Kaffee v. Harinder Kumra, et al.

       The FCC OIG assisted the DOJ in a qui tam suit that resulted in a five million dollar
       payment to the US Treasury and in putting broadband PCS spectrum licenses back in
       use as a result of a settlement of the lawsuit. The relator claimed that the defendants
       had violated the FCA with respect to FCC spectrum license applications after defend-
       ants applied for and received small business bidding credits and used those credits to
       win multiple broadband PCS licenses. The relator claimed that the defendants falsely
       certified certain representations as to their business size and ownership on FCC auc-
       tion applications in order to obtain bidding credits for which defendants would not
       otherwise qualify under the FCC’s auction rules and made false statements during the
       transfer of certain spectrum licenses. During the course of this litigation, the subject
       broadband PCS licenses were not transferrable despite interest from outside parties in
       obtaining these licenses and putting them to use.

       After lengthy negotiations, the parties agreed to a settlement of all claims in this mat-
       ter. Included in that settlement was a payment by the defendants to the United States




FCC OIG—Semiannual Report to Congress            22                       October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      Government in the amount of five million dollars. On November 19, 2010, the United
      States District Court for the District of Columbia consented to the voluntary dismissal
      of this matter with prejudice.

      General Communications Inc.

      In April 2008, the FCC OIG and DOJ started investigating allegations of duplicative,
      unsubstantiated, or otherwise improper claims submitted to the low income compo-
      nent of the FCC’s universal service program.

      The relator in that qui tam lawsuit had alleged that Alaska DigiTel, which General
      Communications Inc. (‚GCI‛) acquired in 2008, allowed ineligible subscribers access to
      Low Income Program support and then allegedly billed and received improper
      amounts from the low income component of the FCC’s universal service program. Un-
      der the low income component of the FCC’s universal service program, eligible con-
      sumers may receive free or discounted wireline or wireless services from participating
      carriers after the carrier confirms the customer’s eligibility under FCC rules. Reim-
      bursement of Low Income Program support is paid directly to the carriers, not the low
      income consumer.

      CGI paid $1,556,075 and entered into a compliance agreement regarding future partici-
      pation in the program to settle allegations regarding submitting false claims to the FCC
      for improperly substantiated, duplicative, or otherwise ineligible subscribers during
      the period January 1, 2004 through August 31, 2008. Under the civil settlement agree-
      ment, the relator received $260,274 of the settlement amount.

      Hewlett-Packard

      In November 2010, the United States settled two qui tam whistleblower lawsuits with
      the Hewlett-Packard Company (‚HP‛). The suits alleged HP violated the competitive
      bidding rules of the FCC’s universal service program. The United States also inter-
      vened in those same lawsuits against HP’s former business partners, Micro Systems




FCC OIG—Semiannual Report to Congress        23                   October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       Engineering and Analytical Computer Services, as well as against Ruben Bohuchot, the
       former chief technology officer of the Dallas Independent School District (‚DISD‛) and
       Frankie Wong, the former chief executive officer of Micro Systems Engineering. In re-
       lated criminal proceedings in 2008, both Bohuchot and Wong were convicted of brib-
       ery for their conduct relating to the DISD and sentenced to more than 10 years in pris-
       on.

       Following tips from whistleblowers, the FCC OIG and the DOJ investigated allegations
       that contractors working with HP and other companies lavished gifts on the DISD and
       the Houston Independent School District (‚HISD‛) personnel in order to obtain con-
       tracts that included some $17 million in HP equipment. Contractors provided meals
       and entertainment, including trips on a yacht and tickets to the 2004 Super Bowl, to
       obtain inside bidding information and win contracts that were supposed to be award-
       ed through a competitive bidding process.

       As part of the settlement, HP agreed to pay the government $16.25 million, most of
       which will be returned to the FCC’s universal service program. The whistleblowers
       will receive approximately $2.2 million. Additionally, HP entered into a compliance
       program agreement to ensure that HP follows FCC universal service program rules in
       the future.

                  Investigations into Fraud in the Federal Universal Service Program

       The bulk of the work of FCC OIG Investigations involves investigating and supporting
       the civil and criminal prosecution of fraud in the FCC’s federal universal service pro-
       gram. The AIGI and Investigations staff work with other state, local and federal agen-
       cies in these matters. These joint and coordinated investigation and prosecution ef-
       forts, especially those of the DOJ and the FCC and its OIG, have resulted in many suc-
       cesses, including civil settlements and criminal convictions.

       Most of our on-going universal service investigations are not known to the public and
       even some closed investigations cannot be disclosed because of sensitivities that could




FCC OIG—Semiannual Report to Congress         24                        October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      impact related ongoing matters, but below we highlight a few matters that had public
      developments during the reporting period.

      Jeremy R. Sheets

      In December 2010, Jeremy R. Sheets pleaded guilty to one count of wire fraud in viola-
      tion of 18 U.S.C. §1343 for his activities related to two Michigan school district’s FCC
      funding applications. Sheets engaged in the wire fraud from approximately December
      2001 through December 2007.

      Sheets, the president and part owner of an Internet and technology services company,
      violated FCC rules by compensating two school districts for their share of E-Rate ex-
      penses. The FCC’s universal service program requires that all applicant schools pay a
      portion of eligible expenses in order to qualify for funding under the program. Sheets
      attempted to circumvent this requirement by promising prospective customers that
      they would not have to pay anything to obtain goods and services under the program.
      For example, Sheets made a ‚donation‛ of approximately $20,500 in 2004, intending to
      cover that school district’s required share of FCC funded project expenses. Sheets also
      exchanged checks with another school district in order to create the false appearance
      that the school district had paid its portion of expenses under the FCC’s program.
      Sheets conspired with an employee of that school district to order goods and services
      which were not otherwise eligible for funding and/or not disclosed to the FCC, but
      which were paid for out of overcharges to the FCC’s program.

      Sheets faces a maximum penalty of 20 years imprisonment and a $250,000 fine, as well
      as approximately $115,500 in restitution. The FCC OIG assisted in the investigation of
      this case with the FBI, the DOJ Antitrust Division’s Chicago Field Office and the U.S.
      Attorney’s Office in Grand Rapids, Michigan.

      Tyrone D. Pipkin and Barrett C. White

      On March 28, 2011, in United States District Court in New Orleans, Tyrone Pipkin




FCC OIG—Semiannual Report to Congress         25                  October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       pleaded guilty to participating in a conspiracy to defraud the FCC universal service
       program. Pipkin, a former co-owner of Global Networking Technologies, Inc. (GNT),
       pleaded guilty to participating in a conspiracy to provide bribes and kickbacks to
       school officials and employees responsible for the procurement at schools in Arkansas,
       Illinois and Louisiana thereby defrauding the FCC. According to Pipkin’s plea agree-
       ments, he and coconspirators obtained contracts funded by the FCC’s universal service
       program for GNT and Computer Training and Associates (CTA) by undermining and
       obstructing the competitive bid processes at schools and school districts located in Ar-
       kansas, Illinois, Louisiana, Texas, Florida and North Dakota. In return for bribes and
       kickbacks, school employees gave Pipkin and his co-conspirator control of their com-
       petitive bidding processes and ensured that their companies obtained FCC funded
       contracts at those schools. In a related case, on March 3, 2011, Barrett (‚Barry‛) White
       also pleaded guilty to one count of conspiracy to defraud the FCC universal service
       program. As a result of Pipkin and his coconspirator’s fraudulent actions, CTA and
       GNT unlawfully obtained approximately $4.16 million from the FCC’s universal ser-
       vice program.

       Pipkin and White both face a potential maximum penalty of five years imprisonment,
       restitution, and $250,000 fines, which might be increased to twice the gain derived
       from their crime or twice the loss suffered by the victims of the crime if either amount
       is greater than the statutory maximum fine. The FCC OIG assisted in this investigation
       with the FBI, the DOJ Antitrust Division’s Dallas Field Office and the U.S. Attorney’s
       Office in the Eastern District of Louisiana

       GNT and CTA had pleaded guilty in 2008 to defrauding the E-Rate program following
       a federal investigation which revealed that GNT and CTA over-billed a North Dakota
       school district for technology services funded by the FCC’s universal service program.
       The companies were ordered to pay $241,000 in restitution and GNT, CTA, Pipkin and
       partner Gloria Harper were debarred from contracting with the federal government or
       directly or indirectly receiving benefits under federal nonprocurement programs for a
       period of three years.




FCC OIG—Semiannual Report to Congress         26                         October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      Gregory Paul Styles and Marvin Mitchell Freeman

      In October 2010, Gregory Paul Styles, 45, of Lemoore, California and Marvin Mitchell
      Freeman, 58, of Selma, California, pleaded guilty to one count each of conspiracy to
      commit mail fraud. Styles was employed as a Management System Information Direc-
      tor for Chowchilla Elementary School District (‚CESD‛) in Chowchilla, California in
      1998and thus was ineligible to bid for or receive school district projects funded by the
      FCC’s universal service program. Styles devised a program to receive FCC universal
      service funds while at the same time receiving his CESD salary. Styles recruited Free-
      man and his company, Twisted Head Design, to submit a bid during the competitive
      bidding process to provide equipment and services to CESD that would be paid for
      under the FCC’s program. Twisted Head Design was in the exclusive business of silk
      screening products and not in the business of installing or providing computer equip-
      ment.

      Styles and Freeman were sentenced on March 11, 2011. Styles was ordered to reside
      and participate in a residential community correction center for a period of 30 days.
      Both were sentenced to supervised probation, community service and ordered to pay
      restitution to the FCC’s universal service program.

      The FBI and the Chowchilla Police Department investigated this case with assistance
      from the FCC OIG, and it was prosecuted by Assistant United States Attorney Mark J.
      McKeon.

      Donna English and Project Managers, Inc.

      In December 2010, Donna P. English, d/b/a/ Project Managers, Inc. (‚PMI‛), of Michi-
      gan City, Indiana, pleaded guilty to two counts of wire fraud in violation of 18 U.S.C. §
      1343, one count of mail fraud in violation of 18 U.S.C. § 1341 and one count of theft of
      government funds in excess of $100,000 in violation of 18 U.S.C. § 641. According to
      the plea agreement, English knowingly devised and participated in a scheme to de-
      fraud the FCC and River Forest Community School Corporation/District (‚RFCSC‛),




FCC OIG—Semiannual Report to Congress          27                  October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       located in Hobart, Indiana by submitting false invoices and information to the FCC’s
       universal service program, resulting in RFCSC submitting false information to the pro-
       gram. Among other acts, English submitted requests to the FCC for payment based up-
       on false invoicing, submitted false invoices for technical services, and misrepresented
       to the FCC that RFCSC had an active Internet security program compliant with re-
       quirements of the Children’s Internet Protection Act. English was also charged with
       felony theft of public funds which were paid to her for technology products and ser-
       vices that English and PMI failed to provide to the Michigan City Housing Authority.

       English will be sentenced by the United States District Court for the Northern District
       of Indiana and faces up to 70 years imprisonment, a fine of up to $1,000,000, a manda-
       tory assessment and up to 12 years of supervised release. English has also agreed to
       make full restitution to the FCC’s universal service program.

       This case was investigated by the FCC OIG, DOJ Antitrust Division, the United States
       Department of Education OIG, the United States Postal Inspection Service, the Indiana
       State Police, and the Housing and Urban Development OIG. This case was prosecuted
       by Assistant United States Attorney Toi Houston, and Jennifer Dixton, Trial Attorney,
       Anti-Trust Division.

                Investigation into Fraud in the Federal Communications Commission
                                  Telecommunications Relay Service

       The FCC OIG is continuing its work with the Criminal Division of DOJ, the FBI and
       the United States Postal Inspection Service on several fraud investigations involving
       fraud on the FCC’s Telecommunications Relay Service (‚TRS‛) Fund program.

       The FCC established the TRS program pursuant to section 225 of the Communications
       Act of 1934, as amended. Section 225 requires the FCC to ensure that TRS is ‚available
       to the extent possible and in the most efficient manner to hearing-impaired and speech
       - impaired individuals in the United States.‛ 47 U.S.C. § 225. TRS permits hearing- or
       speech-impaired individuals to communicate with a hearing individual over




FCC OIG—Semiannual Report to Congress           27                       October 1, 2010—March 31 2011
                                     INVESTIGATIONS

      the telephone or other telecommunications transmissions by using a trained interpret-
      er called a communications assistant. Private sector entities that are either part of certi-
      fied state programs or certified by the FCC provide TRS for telecommunications calls
      to or from hearing or speech impaired individuals and are then compensated through
      the FCC’s TRS program at a rate, set by the FCC, per minute of use as reported month-
      ly by the entity to the FCC’s TRS Fund Administrator. The TRS program is funded by
      assessments on interstate telecommunications carriers, which are passed on to con-
      sumers through the rates that they pay for telecommunications services.

      Video Relay Service (‚VRS‛) is a form of TRS that allows individuals with hearing dis-
      abilities to use sign language to communicate with voice telephone users through vid-
      eo equipment, a broadband connection, and use of a communications assistant who is
      a trained video interpreter (‚VI‛). Over the last few years, VRS-related claims on the
      FCC’s TRS Fund increased significantly until just recently, when approximately 80% of
      TRS Fund payments were made to VRS providers.

      Prosecutions of those indicted in November 2009 on allegations of submitting false or
      fraudulent claims for reimbursement for Video Relay Service (VRS) continued apace
      during this reporting period. As of this date, DOJ has obtained guilty pleas from or
      convictions of 23 of those indicted. Four cases, three against individual defendants
      and one again a corporate defendant, remain pending.

      On October 28, 2010, before U.S. District Court Judge Joel A. Pisano, in Trenton, NJ,
      John T.C. Yeh and Joseph Yeh, the owner and vice president for corporate policy, re-
      spectively, of Viable Communications, Inc. (Viable) pleaded guilty to engaging in a
      conspiracy the defraud the FCC’s TRS program. According to the pleas, John and Jo-
      seph Yeh paid co-defendants Anthony Mowl and Donald Tropp, managers at Viable,
      who then paid others to make fraudulent phone calls using Viable’s VRS service. At
      sentencing John and Joseph Yeh each face a maximum sentence of 20 years in prison, a
      fine of $250,000 and mandatory restitution and forfeiture.

      Also on October 28th before Judge Pisano, Jessica Bacallao, a former manager at




FCC OIG—Semiannual Report to Congress          28                    October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       Innovative Communications Services for the Deaf, Corp. (ICSD), a business registered
       and doing business in Florida, pleaded guilty to one count of conspiracy to commit
       mail fraud. ICSD was a subcontractor of Viable, which billed fraudulent VRS calls
       processed by ICSD through a certified VRS provider based in Flint, MI.

       On November 1, 2010, David Simmons, Marketing and Advertising Director at Mas-
       com Communications LLC, a Nevada company that processed VRS calls for Viable,
       pleaded guilty to one count of conspiracy to commit mail fraud.

       On January 6, 2011, Marc Velasquez, the owner of Deaf Studio 29, Inc., Verson Studio,
       Inc., and Deaf News Network, Inc., all California corporations, pleaded guilty before
       Judge Pisano, to engaging in a conspiracy to defraud the FCC’s TRS program. Mr. Ve-
       lasquez admitted that, beginning in October, 2008, he conspired with others to pay in-
       dividuals to make fraudulent VRS calls. Mr. Velasquez billed fraudulent calls pro-
       cessed in California through a certified VRS provider based in New York, New York.
       At his sentencing, Mr. Velasquez faces a maximum sentence of 20 years in prison, a
       $250,000 fine, and mandatory restitution and forfeiture.

       On January 24, 2011, before Judge Pisano, Ellen Thompson and Wanda Hutchinson
       pleaded guilty for their participation in a conspiracy to defraud the FCC’s TRS pro-
       gram. Ms. Thompson, a co-defendant with Marc Velasquez, was the chief operating
       officer at Deaf Studio 29, Verson Studio, and Deaf News Network. Ms. Hutchinson
       was a call center manager for ICSD. Each pleaded guilty to one count of conspiracy to
       commit mail fraud, and each face a maximum sentence of 20 years in prison, a
       $250,000 fine, and mandatory restitution and forfeiture.

       The FCC OIG continues to receive and investigate allegations of fraud on the TRS
       Fund through use of VRS. The allegations of fraud often involve schemes to defraud
       the TRS Fund through fake marketing or outreach calls or other methods of
       ‚pumping‛ the minutes of use for which specific TRS or VRS providers are compen-
       sated. Such allegations include, among others, that VRS subcontractors hire deaf call-
       ers to make purported outreach calls to various public (schools, libraries, hospitals,




FCC OIG—Semiannual Report to Congress          29                       October 1, 2010—March 31 2011
                                    INVESTIGATIONS

      departments of motor vehicles) and private (airlines, coffee shops, movies) institutions,
      but whose real purpose is simply to generate VRS minutes. The FCC OIG and the
      DOJ continue to and will continue to investigate and prosecute those who would de-
      fraud the FCC’s TRS Fund and the United States.

                 Investigations into Fraud in Recovery Act Funded FCC Contracts

      The American Recovery and Reinvestment Act of 2009 (ARRA or Recovery Act) speci-
      fied two programs under which the FCC had responsibilities: the Digital-To-Analog
      Converter Box Program (‚DTV‛) and a program to develop a national broadband plan.
      As of March 31, 2011 the Commission had obligated over $99 million of the Recovery
      Act funds and had paid out over $86 million in furtherance of these programs. Of the
      $99 million in obligations, $64 million was obligated for DTV-related contract awards
      and $35 million was obligated for contract awards related to development of a national
      broadband plan.

      The DTV program is complete. This program provided consumer education and out-
      reach related to the transition to digital television (DTV) broadcasts in order to aid a
      smooth transition to digital broadcasts by increasing awareness, particularly among
      groups most at risk for losing television service such as senior citizens, minority com-
      munities, people with disabilities, low-income individuals, and people living in rural
      areas, and providing one-on-one assistance to vulnerable populations. Contracts were
      awarded to over 40 vendors to help the FCC outreach and assistance initiatives includ-
      ing: media buys, community walk-in assistance centers, in-home converter box assis-
      tance, call center support services, web site upgrades to improve the Commission’s
      DTV website (www.dtv.gov), printing DTV publications and translating those publica-
      tions to benefit non-English speaking communities, and for travel expenditures for
      Commission staff who served as the ‚boots on the ground‛ during the weeks leading
      up to the transition. Staff members provided local support and information to commu-
      nities across the country, particularly in markets where there was a significant percent-
      age of the population receiving television signals over-the-air. The nation-wide DTV
      transition occurred on June 12, 2009. Recovery Act funded DTV activities have ceased




FCC OIG—Semiannual Report to Congress          30                  October 1, 2010—March 31, 2011
                                        INVESTIGATIONS

       as of September 30, 2010. The FCC Call Center remains a resource for consumers seek-
       ing help with DTV Transition issues.

       The FCC OIG has received and continues to receive allegations of fraud, waste, abuse
       and misconduct in the Recovery Act programs from a variety of sources, including the
       OIG Hotline, news reports, and the FCC’s Office of Managing Director. Presently, the
       FCC OIG has 28 active investigations. OIG investigations have revealed indications of
       fraud, as well as a number of contractual problems including invoice issues and verifi-
       cation of performance.

       OIG HOTLINE

       During this reporting period, the OIG Hotline technician received numerous calls to
       the published hotline numbers of (202) 418-0473 and 1-888-863-2244 (toll free). The
       OIG Hotline continues to be a vehicle by which Commission employees and parties
       external to the FCC can contact OIG to speak with a trained Hotline technician. Callers
       who have general questions or concerns not specifically related to the missions or
       functions of the OIG office are referred to the FCC Consumer Center at 1-888-225-5322.
       In addition, OIG also refers calls that do not fall within its jurisdiction to other entities,
       such as other FCC offices, federal agencies and local or state governments. Examples
       of calls referred to the Consumer Center or other FCC offices include complaints per-
       taining to customers’ phone service and local cable providers, long-distance carrier
       slamming, interference, or similar matters within the program responsibility of other
       FCC bureaus and offices.

       During this reporting period, we received 2,237 Hotline contacts, which resulted in
       OIG taking action on 39 of these. The remaining calls were forwarded to the other
       FCC bureaus and offices, primarily the FCC Consumer Center (1,390 calls) and other
       federal agencies, primarily the Federal Trade Commission (808 calls).




FCC OIG—Semiannual Report to Congress             31                         October 1, 2010—March 31 2011
                                 REPORTING REQUIREMENTS
      The following are the Office of Inspector General response to the 12 specific reporting requirements set
      forth in Section 5(a) of the Inspector General Act of 1978, as amended.

      1. A description of significant problems, abuses, and deficiencies relating to the administration of pro-
      grams and operations of such establishment disclosed by such activities during the reporting period.

      Please refer to the sections of this report titled “Universal Service Fund Oversight” and “Investigations.”

      2. A description of the recommendations for corrective action made by the Office during the reporting
      period with respect to significant problems, abused, or deficiencies identified pursuant to paragraph (1).

      Please refer to the section of this report titled “Universal Service Fund Oversight” and “Investigations.”

      3. An identification of each significant recommendation described in previous semiannual reports on
      which corrective action has not yet been completed.

      No significant recommendations remain outstanding.

      4. A summary of matters referred to authorities, and the prosecutions and convictions which have re-
      sulted.

      Please refer to the section of this report titled “Investigations."

      5. A summary of each report made to the head of the establishment under section (6) (b) (2) during the
      reporting period.

      No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting period.

      6. A listing, subdivided according to subject matter, of each audit report issued by the Office during the
      reporting period, and for each audit report, where applicable, the total dollar value of questioned costs
      (including a separate category for the dollar value of unsupported costs) and the dollar value of recom-
      mendations that funds be put to better use.

      Each audit report issued during the reporting period is listed according to subject matter and described in the
      “Audit Areas” section. We issued no reports with questioned costs or recommendations that funds be put to better
      use during the reporting period.




FCC OIG—Semiannual Report to Congress                        32                      October 1, 2010—March 31, 2011
                                 REPORTING REQUIREMENTS
       7. A summary of each particularly significant report.

       Each significant audit and investigative report issued during the reporting period is summarized within the audits
       and investigations sections and in Tables I and II of this report.

       8. Statistical tables showing the total number of audit reports with questioned costs and the total dollar
       value of questioned costs.

       We issued no reports with questioned costs during the reporting period.

       9. Statistical tables showing the total number of audit reports with recommendations that funds be put
       to better use and the total dollar value of such recommendations.

       We issued no reports with recommendations that funds be put to better use during the report-
       ing period.

       10. A summary of each audit report issued before the commencement of the reporting period for which
       no management decision has been made by the end of the reporting period (including the date and title
       of each such report), an explanation of the reasons why such a management decision has not been made,
       and a statement concerning the desired timetable for achieving a management decision on each such
       report.

       No audit reports fall within this category.

       11. A description and explanation of the reasons for any significant revised management decision made
       during the reporting period.

       No management decisions fall within this category.

       12. Information concerning any significant management decision with which the Inspector General is in
       disagreement.

       No management decisions fall within this category.

       13. Information described under section 05(b) of the Federal Financial Management Improvement Act of
       1996.

       No reports with this information have been issued during this reporting period.




FCC OIG—Semiannual Report to Congress                       34                              October 1, 2010—March 31 2011
                                         APPENDIX
      Results of Peer Reviews

      As required by Public Law 111-203, we are pleased to report that the OIG of the Equal
      Employment Opportunity Commission conducted a peer review of this office during
      the reporting period and its review disclosed no recommendations for any corrective
      actions. The peer review report, dated August 3, 2010, concluded the system of quality
      control for the FCC OIG provides reasonable assurance of performing and reporting
      audits in conformity with applicable professional standards in all material respects
      and FCC OIG has received a peer review rating of pass.




FCC OIG—Semiannual Report to Congress          35                 October 1, 2010—March 31, 2011
Report fraud, waste
or abuse to:
    Email:        Hotline@FCC.gov


    Call Hotline:        202-418-0473
                         or
                         888-863-2244




                                  Office of Inspector General
                             Federal Communications Commission
                              445 12th Street S.W. Room 2-C-762
                                    Washington, DC 20554
                                    WWW.FCC.GOV/OIG




FCC OIG—Semiannual Report to Congress                             October 1, 2010—March 31 2011
